No. 20-1088
IN THE

Supreme Court of the United States
DAVID and AMY CARSON, as parents and
next friends of O.C., and TROY and ANGELA NELSON,
as parents and next friends of A.N. and R.N.,
Petitioners,
v.
A. PENDER MAKIN, in her official capacity as
Commissioner of the
Maine Department of Education,
Respondent.
CERTIFICATE OF SERVICE

Pursuant to this Court’s Rule 29 and order of April 15, 2020, I hereby certify that
I am a member in good standing of the bar of this Court and that on this 11th day of
March, 2021, all parties required to be served have been served with one paper copy
and one electronic copy of the Brief of Innovative Schools as Amici Curiae in Support of
Petitioners.
Michael Eugene Bindas
INSTITUTE FOR JUSTICE
600 University Street
Suite 1730
Seattle, WA 98101
(206) 957-1300
mbindas@ij.org

Sarah Ann Forster
OFFICE OF THE ATTORNEY GENERAL
6 State House Station
Augusta, ME 04333
(207) 626-8866
sarah.forster@maine.gov
Counsel for Respondent

Counsel for Petitioners

________/s/ Allyson N. Ho_____________
Allyson N. Ho

